UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General




               Procurement Actions


                Report No. OIG-AMR-52-07-02




                                              March 2007
                                       TABLE OF CONTENTS
BACKGROUND ......................................................................................1

OBJECTIVE, SCOPE, AND METHODOLOGY ..........................................2

FINDINGS ..............................................................................................3

ALL CONTRACTS ...................................................................................3
  Acquisition Planning............................................................................3
  Competition.........................................................................................4
  Funds Availability................................................................................4
  Ratification..........................................................................................5
  Contract File Maintenance...................................................................6
  Inspection Clauses ..............................................................................6
  Federal Supply Schedules....................................................................7
   Mailroom Support Services..................................................................7
   Maintenance for Punch Machines ........................................................8
PURCHASES LESS THAN $100,000 .......................................................8
  Small-Business ...................................................................................8
  Contract Administration ......................................................................8
   Expired Option ...................................................................................8
   Incremental Funding ..........................................................................9
   Invoices ...........................................................................................10
   Advanced Payment ..........................................................................10
PURCHASES GREATER THAN $100,000 ..............................................11
  Market Research ...............................................................................11
  Determination and Findings ..............................................................11
  Contract Type....................................................................................11
MANAGEMENT'S COMMENTS AND OIG RESPONSE............................12

RECOMMENDATIONS..........................................................................13

ATTACHMENT 1 – Purchases Less than $100,000................................15

ATTACHMENT 2 – Purchases Greater than $100,000 ...........................16

APPENDIX

        Memorandum from the Procurement and Facilities Branch
        Chief, “Response to Draft Audit Report, Procurement Actions
        (OIG-AMR-52),” dated March 12, 2007.
                                BACKGROUND

The National Labor Relations Board (NLRB or Agency) administers the principal
labor relations law of the United States, the National Labor Relations Act
(NLRA) of 1935, as amended. The NLRA is generally applied to all enterprises
engaged in interstate commerce, including the United States Postal Service, but
excluding other governmental entities as well as the railroad and the airline
industries. The Fiscal Year (FY) 2006 appropriation authorized 1,840 full-time
equivalents that are located at Headquarters, 51 field offices throughout the
country, and 3 satellite offices for administrative law judges. NLRB received an
appropriation of $252,268,000 for FY 2006, less an across-the-board rescission
of 1 percent, leaving a net spending ceiling of $249,745,320. For FY 2007, the
Agency is operating under a Continuing Resolution (CR) at the FY 2006 ceiling
plus approximately $1.7 million for the 2007 pay increase.

The Code of Federal Regulations Title 48 is the Federal Acquisition Regulations
System (FAR). The FAR is established for the codification and publication of
uniform policies and procedures for acquisition by Executive agencies.

The FAR provides that Federal agencies practice full and open competition in
procuring goods and services. The Federal Acquisition Streamlining Act of
1994 removed many competition restrictions on purchases and allowed for the
use of simplified procedures for soliciting and evaluating bids up to $100,000.
These procedures entail fewer administrative details, lower approval levels, and
less documentation. Additionally, all purchases above $2,500, but under
$100,000, are generally reserved for small businesses. The threshold was
raised to $3,000 on September 28, 2006.

The Procurement and Facilities Branch (PFB), Contract and Procurement
Section (CPS), Division of Administration, is generally responsible for the
purchase of furniture, equipment, supplies, and services for the Agency. Other
offices are responsible for Government Printing Office orders, training, and
select information technology requirements. The Director of Administration is
the Agency's Senior Procurement Executive.

The Office of Inspector General (OIG) recently performed an audit of Information
Technology Procurement Actions (OIG-AMR-51-06-02), which contained
numerous findings. This audit was performed to determine whether similar
weaknesses existed for other types of procurements.




                                       1
                 OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of this audit was to evaluate the acquisition process for the
procurement of goods and services. Our scope included procurement actions
other than space rent, vehicles, telecommunications, or information technology
goods and services, which were the subject of other reviews. We estimate that
the Agency obligated approximately $9.1 million for actions within the scope of
our review.

We reviewed applicable sections of Federal statutes and regulations, Office of
Management and Budget (OMB) guidance, and Comptroller General decisions
to determine the laws and regulations affecting the procurement of goods and
services. We reviewed Agency policies and procedures including the
Administrative Policies and Procedures Manual, Chapter CON-1, Contract and
Procurement, dated August 12, 2004, and the NLRB Procurement Warrant
Manuals. We interviewed employees in PFB to identify the standard operating
procedures for the procurement of goods and services.

We reviewed reports prepared by the PFB and Finance Branch (Finance) and
interviewed members of these branches to determine the universe of
acquisitions and spending related to the procurement of goods and services
and performed various analyses to find possible fraud indicators.

We selected a judgmental sample of 25 acquisitions from FY 2005 and FY 2006
(through June 30, 2006) for review. This included 20 contracts between
$2,500 and $100,000 and 5 contracts that were in amounts greater than
$100,000. We also reviewed actions that were not in our sample that came to
our attention during the review. We interviewed members of the Division of
Operations-Management, Division of Administration, PFB, Finance, Library
and Administrative Services Branch, and Budget Branch (Budget). We
reviewed applicable documents to determine whether acquisition planning,
contract administration, and contract oversight were conducted in compliance
with laws and regulations.

We obtained data from the Agency’s financial management system on contract
approvals to determine whether a contract was signed prior to obtaining the
proper approvals.

This audit was performed in accordance with generally accepted government
auditing standards during the period August 2006 through March 2007. We
conducted this audit at NLRB Headquarters in Washington, DC.




                                       2
                                    FINDINGS

Most of the 25 contracts reviewed had some aspect that was not in
conformance with the FAR or Federal appropriations law. The non-
conformances dealt with all aspects of the acquisition process including
planning, awarding the contract, and monitoring performance as shown in
Attachment 1 and Attachment 2.

Two contracts reviewed involved the Agency spending more than was needed to
meet the identified need or contractual obligation. In a contract for mailroom
services, the Agency used the wrong Federal Supply Schedule (FSS) costing the
Agency approximately $174,000 for the first 3 years of the contract. In a
contract for technical space planning and design services, the Agency paid a
contractor, who was a former Agency employee, $1,150 for lunch breaks.


ALL CONTRACTS

Acquisition Planning

Section 7.102 of the FAR requires acquisition planning for all acquisitions in
order to promote and provide for acquisition of commercial items and full and
open competition. Also, Section 7.105 of the FAR outlines the contents of
written acquisition plans, which must address all technical, business,
management, and other significant considerations that will control the
acquisition. The specific content of plans will vary, depending on the nature,
circumstances, and stage of acquisition.

Required written acquisition plans were not completed for 20 purchases. Of
these, 11 were simplified acquisitions, 5 were FSS, and 4 were greater than
$100,000. In a response to our draft report, the PFB Chief stated that the FAR
does not require a written acquisition plan for every contract and that PFB
intends to apply these principles without subjecting the acquisition staff to
undue paperwork burdens.

Although we agree that acquisition plans should not be overly burdensome,
plans are required by FAR Sections 7.102(a) and 8.404(c) for the acquisitions
reviewed in this audit. Section 7.103 of the FAR does, however, provide
flexibility to the Agency to establish procedures for acquisition planning with
regard to the nature of the supplies and services required. This flexibility can
be used to establish a reasonable level of effort for developing acquisition plans.
Rather than attempting to avoid this planning requirement, PFB should fulfill
the acquisition planning requirement to ensure that the contracting needs of
the Agency are met.



                                        3
Competition

Sections 6.303-1, 8.405-6, and 13.106-3 of the FAR state that an ordering
activity must justify its action when limiting sources. Circumstances that may
justify restriction include: only one source is capable of responding due to the
unique or specialized nature of the work or an urgent and compelling need
exists. Also, the FAR requires that justifications be documented in writing.

Adequate justification for using other than full and open competition was not
documented for 10 contracts. Eight of these were purchases less than
$100,000 and the other two were greater than $100,000.

CPS commented that a contract for replacing library doors was a compelling
situation because the building lease requires the use of identified contractors.
However, the lease did not include that provision. PFB stated that a contract
for copier paper was not a sole source contract and provided evidence of one
additional contractor solicited. Section 8.405-1 of the FAR requires that
ordering activities survey at least three schedule contractors when ordering
from a FSS for orders not requiring a statement of work and exceeding the
micro-purchase threshold.

The sole source justification for a contract for periodic publications, Web site
database access, and inquiry service, was based on the unique and specialized
work to be provided and special pricing. The contract file contains no
documentation that this contractor was the only available source of such
services and the special pricing was not a sufficient basis to limit competition.

Funds Availability

Section 32.702 of the FAR requires that before executing any contract, the
contracting officer obtain written assurance from responsible fiscal authority
that adequate funds are available or expressly condition the contract upon
availability of funds. The responsible fiscal authority at the NLRB is Budget,
whose assurance that adequate funds are available is documented by their
approval in Momentum, the Agency’s financial management system.

Three contracts were entered into between 1 and 3 days before assurance that
funds were available and were not contingent on the availability of funds. The
Agency increases the risk of exceeding its appropriation if funds availability is
not determined before entering into a contract.




                                        4
Ratification

Section 1.602-3 of the FAR states that an unauthorized commitment is an
agreement that is not binding solely because the Government representative
who made it lacked the authority to enter into that agreement on behalf of the
Government. Ratification is the act of approving an unauthorized commitment
by an official who has the authority to do so. The head of the contracting
activity, unless a higher level official is designated by the Agency, may ratify an
unauthorized commitment. Legal review is required prior to ratification. At the
NLRB, the ratification authority resides with the Director of Administration.

Seven contracts in our sample were unauthorized commitments that were not
properly ratified. Each of these contracts was approved by Budget and six were
signed by the contracting officer after the performance period began. This
resulted in Agency personnel accepting goods or services prior to the existence
of the contracts thereby creating unauthorized commitments. The chart below
provides the relevant dates for the seven unauthorized commitments.

                         Unauthorized Commitments

             Performance               Budget Approval       Contract Date
             Period Began              Date
  40-060038  January 1, 2006           January 11, 2006      January 1, 2006 *
  40-060061  June 12, 2006             June 13, 2006         June 13, 2006
  40-06RN114 October 1, 2005           October 6, 2005       October 1, 2005 *
  40-050145  April 14, 2005            April 15, 2005        April 13, 2005
  40-06RN116 October 1, 2005           October 25, 2005      December 5, 2005
  40-06RN034 October 1, 2005           October 18, 2005      February 9, 2006
  40-06RN031 October 1, 2005           February 21, 2006     February 22, 2006

* Contract backdated to reflect the contract’s period of performance and
referred for potential investigation.

The Director of Administration was not the contracting officer for any of the
ratifications. Additionally, none of the contracts received a legal review as
required by the FAR. Because these requirements were not met, an effective
ratification did not occur.

PFB made various statements that ratification of these contracts was not
required. The contracting officer should have been aware that beginning
performance prior to the execution of a contract or a properly placed FSS order
is not permissible and, if done, requires ratification.
The Director of Administration stated that a reason for the ratification problem
was that PFB did not receive a Form 12, Requisition for Furniture, Equipment,



                                        5
Supplies or Services, in a timely fashion. However, these ratifications were the
result of requests from within the Division of Administration, including two
that were initiated by PFB.

Contract File Maintenance

According to Section 4.802 of the FAR, a contract office file should generally
document the basis for the acquisition and the award, the assignment of
contract administration, and any subsequent actions taken by the contracting
office. If the contract files or file segments are decentralized to various
organizational elements or to other outside offices, responsibility for their
maintenance must be assigned. A central control and, if needed, a locator
system should be established to ensure the ability to locate files promptly.

Four contract files maintained by PFB contained only the initial purchase order
with no supporting documentation. All of these were Library contracts and,
according to PFB, supporting documentation is maintained by the Library.
However, the Library’s responsibility for these documents had not been
assigned and no central control system was in place to ensure the ability to
locate the contract files promptly.

Inspection Clauses

Subpart 46.3 of the FAR requires the inclusion of certain inspection clauses for
contracts depending on the type of contract. The inspection clauses are not
required for fixed-price supply or service contracts when the contract amount
is not expected to exceed the simplified acquisition threshold. However,
specific inspection clauses are required for cost-reimbursement service
contracts and labor-hour contracts regardless of the contract amount.

The three labor-hour contracts in our sample of purchases less than $100,000
did not have the appropriate inspection clauses. One of these included the
reimbursement of expenses.

PFB stated that a contract for technical space planning and design services
should not have been awarded as a labor-hour contract, but rather as a firm-
fixed price contract. Without regard to their intent, this is a labor-hour
contract as specified in the contract documents. Therefore, the inspection
clause is required.

PFB stated that the labor-hour inspection clause did not apply to a contract for
services of a senior employee relations specialist because it was a fixed-price
order. We do not agree that this is a fixed-price order. The Agency was billed
for services based on the hours worked at a fixed hourly rate. The purchase
order states that the amount of this contract is not to exceed $65,872.80. The


                                       6
Agency actually paid $30,191.70 for the work completed. If the Agency had
entered a firm-fixed price contract for these services the Agency would have
been billed for the full amount ($65,872.80) because a firm-fixed-price contract
provides for a price that is not subject to any adjustment on the basis of the
contractor’s cost experience in performing the contract.

Two contracts greater than $100,000 did not contain the appropriate
inspection clause. One of these was a fixed-price contract for subscriptions
and the other was a labor-hour contract for mailroom support services.

Federal Supply Schedules

The FSS program is directed and managed by the General Services
Administration (GSA) and provides Federal agencies with a simplified process
for obtaining commercial supplies and services at prices associated with
volume buying. According to Section 8.402 of the FAR, GSA schedule
contracts require all schedule contractors to publish an “Authorized Federal
Supply Schedule Pricelist.” The pricelist contains all supplies and services
offered by a schedule contractor. In addition, each pricelist contains the
pricing and the terms and conditions pertaining to each Special Item Number
that is on a schedule. Section 8.002 of the FAR states that agencies shall
satisfy requirements for supplies and services with priority given to optional
use FSS over commercial sources.

Mailroom Support Services

The Agency did not utilize the correct FSS when it contracted for mailroom
management and operations support services. The Agency used the
contractor’s Mission Oriented Business Integrated Services FSS, but should
have used the FSS for Mail Room Management Services.

We judgmentally selected Pitney Bowes Government Solutions (Pitney Bowes)
and Balmar, Inc. (Balmar), a small business, from the Mail Room Management
Services FSS to estimate the costs of using the correct FSS. Our analysis used
the same staffing levels as the current contract with The Kevric Company, Inc.
(Kevric). The Agency could have put approximately $53,000 to better use by
selecting Pitney Bowes from the correct FSS rather than Kevric for mailroom
services provided from September 20, 2005 through September 19, 2006, the
first option year of the contract that was included in our sample. If the
estimate is expanded to include the original contract period and second option
year that was exercised in September 2006, approximately $174,000 could
have been put to better use.

According to the contract, there are 4 remaining option years. Approximately
$342,000 could be put to better use for the remaining 4 option years on this


                                       7
contract if the Pitney Bowes rates are used. Balmar would save the Agency an
estimated $205,000. Given the large potential savings in years of budget
austerity, the Agency should explore all options to reduce operating costs that
would not significantly compromise Agency operations.

Maintenance for Punch Machines

The Agency did not utilize the contractor's FSS to purchase maintenance
services for punch machines in the Printing, Transportation, and Mail Unit.
The Agency entered into a contract for maintenance on three different punch
machines. The contractor's pricelist includes maintenance for two punch
machines, AP-2 Ultra and PB2600, that are listed on the Agency’s purchase
order and the FSS prices for these two items are less than the amount paid by
the Agency. The Agency paid $3,756.00 and $341.00 respectively. If the
Agency had used the contractor's FSS it would have paid $2,857.50 and
$269.00 for a savings of $970.50.


PURCHASES LESS THAN $100,000

Small-Business

Sections 13.003 and 19.502-2 of the FAR state that each acquisition of
supplies or services that has an anticipated dollar value exceeding $2,500, but
not over $100,000, is automatically reserved exclusively for small business
concerns and shall be set aside for small business unless the contracting
officer determines there is not a reasonable expectation of obtaining offers from
two or more responsible small business concerns that are competitive in terms
of market prices, quality, and delivery. If the contracting officer does not
proceed with the small business set-aside and purchases on an unrestricted
basis, the contracting officer shall include in the contract file the reason for
this unrestricted purchase. This requirement does not apply to purchases of
$2,500 or less, or purchases from required sources of supply.

Three contracts were not awarded to small businesses and none of the contract
files contained a written justification. These contracts were for $4,485 to
maintain punch machines, $29,566 for meeting space and accommodations,
and $4,080 for parking.

Contract Administration

Expired Option

The Comptroller General has held that an unexercised option expires at the
end of the contract's performance period. The Agency failed to exercise the


                                        8
option for personal attendant services prior to the performance period ending
on September 30, 2005. Despite the lack of a contract, Agency personnel
continued to accept services. On December 5, 2005, the contracting officer
executed a purchase order for the services that appears to ratify the
unauthorized commitment by exercising the expired option for a performance
period from October 1, 2005 to September 30, 2006. The unauthorized
commitment that was created by accepting services and the purported
ratification was in effect a noncompetitive creation of a new contractual
relationship. On September 28, 2006, the Agency again exercised an expired
option to extend this contract.

Incremental Funding

Section 1501 of title 31 of the U.S. Code states that an amount shall be
recorded as an obligation only when supported by documentary evidence of a
binding agreement that is in writing and executed before the end of the period
of availability. This requirement contemplates that each agency will record its
obligations properly. Section 3512 of title 31 of the U.S. Code requires
agencies to establish systems of internal accounting and administrative
controls to provide agency management with reasonable assurance that the
agency obligations are in compliance with applicable law and properly
accounted for and recorded.

The obligation incurred by the Agency for personal attendant services was not
properly accounted for or recorded. Initially, the Agency recorded an obligation
for the first 3 months of the 12 month performance period at the time of what
purports to be a ratification of an unauthorized commitment. At the end of the
first 3 months, the contractor continued its performance even though there
was no recorded obligation for that time. The remaining portion of the
obligation was not recorded until March 10, 2006. Although the contract
contains the FAR clause to make the agreement contingent on receiving
funding for the fiscal year, at the time the contract was initially signed by the
contracting officer, the Agency had received funding through a CR and that
contingency had been met.

PFB stated that the reason this contract was incrementally funded was that the
Agency was operating under a CR and full funding was not available.
Generally, a CR will cover a limited period of time, such as a month or a
calendar quarter, to allow agencies to continue to operate at a certain level of
funding. The limited period of availability, however, does not affect the amount
of money appropriated and does not authorize an agency to incrementally
record an obligation. The Agency should record its obligations in their entirety
when they are incurred. If OMB has not apportioned a sufficient amount to
cover all of the contract actions, the Agency should request an apportionment
from OMB for the larger amount.


                                        9
Invoices

Copier paper

The NLRB contracted for recycled copier paper. The Agency received five
shipments from the contractor and was charged over $4,000 for items that
were not part of the contract. The acceptance of these items created an
unauthorized commitment. Rather than creating an unauthorized
commitment by improperly adding items to the contract, the requisitioning
officer should have used a purchase card to procure the additional items
because each shipment was below the micro-purchase level.

Technical space planning and design services

We estimate that the Agency overpaid $1,150 for a contract because lunch
breaks were not deducted from the hours billed to the NLRB. The Agency
contracted with a former NLRB employee to provide technical space planning
and design services to NLRB Headquarters and Field Offices. According to the
Contracting Officer’s Technical Representative, the contractor took a half-hour
lunch break every day. However, the contractor did not deduct these lunch
breaks from the invoices he submitted.

Personal attendant services

In a fixed-price contract for personal attendant services, the Agency was billed
and paid the contractor as if it were a labor-hour contract. Also, the Agency
charged an invoice dated February 6, 2006, for services occurring in August
2005 to FY 2006 when this should have been charged to FY 2005. After we
identified this error, the Agency corrected it on February 1, 2007.

Advanced Payment

Advanced payments to Government contractors for goods and services are
generally prohibited unless authorized by a specific appropriation or other law
or the President. One type of goods and services that has a statutory
exemption from the prohibition on advance payments is publications that are
printed or recorded, including searchable databases. The Comptroller General
held that advance payment for an item that is not a “publication’’ is permissible
if the item is necessary for the effective use of a publication and has no
independent value so as to be useful without the publication.

The Agency paid $12,500 in advance for periodic publications, Web site
database access, and inquiry service. The inquiry service allows designated
individuals to submit up to four questions during the 1-year performance


                                       10
period to the contractor for a response. This inquiry service does not meet the
advance payment criteria. From the contractor’s pricing structure, the cost of
the inquiry service appears to be $2,500.


PURCHASES GREATER THAN $100,000

Market Research

Section 10.001 of the FAR states that agencies must ensure that legitimate
needs are identified and trade-offs evaluated to acquire items that meet those
needs. Also, they must conduct market research appropriate to the
circumstances before soliciting offers for acquisitions with an estimated value
in excess of the simplified acquisition threshold.

The contract files contained no evidence that market research was completed
for four contracts to acquire a subscription, postage meters, or copier services
(two of these contracts related to copier services).

Determination and Findings

Section 17.502 of the FAR states that the Economy Act authorizes agencies to
enter into mutual agreements to obtain supplies or services by interagency
acquisition. Section 17.503 of the FAR requires that each Economy Act order
be supported by a Determination and Finding (D&F). The D&F shall state that:

    (1) Use of an interagency acquisition is in the best interest of the
        Government; and
    (2) The supplies or services cannot be obtained as conveniently or
        economically by contracting directly with a private source.

One contract in our sample, for copier services, was subject to the provisions of
the Economy Act, but the contract file did not contain a D&F. Without this
document, the Agency may not know that the use of an interagency acquisition
is in the best interest of the Government and cannot be obtained as
conveniently or economically from a private source. PFB stated that the D&F
document not being completed was an oversight.

Contract Type

According to Sections 16.601 and 16.602 of the FAR, labor-hour contracts may
be used only when it is not possible at the time of placing the contract to
estimate the extent or duration of the work or to anticipate costs with any
reasonable degree of confidence.



                                       11
A labor-hour contract was executed for mailroom operations even though
information was available to estimate the extent and duration of the work and
anticipate costs. The extent of work required by the Agency was outlined in the
statement of work. It stated that the Agency required a designated project
manager and two mail clerks. NLRB hours of operation are between 8:00 a.m.
and 6:00 p.m., Monday through Friday on all Federal workdays. With this
information, the anticipated cost could be easily determined.

PFB believes that this is a fixed-price order. We disagree that this is a fixed-
price order. According to FAR Sections 16.601 and 16.602, this contract
should be classified as a labor-hour contract because the Agency contracted for
direct labor hours at specified fixed hourly rates. Also, the Agency was billed
and paid for the actual hours worked at the fixed hourly rate.


MANAGEMENT'S COMMENTS AND OIG RESPONSE

Management agreed with three recommendations made in the draft report. As
part of another recommendation, Finance corrected a payment initially charged
to FY 2006 that should have been charged to FY 2005.

For one recommendation, the Agency provided additional information regarding
the appropriateness of certain obligations for subscriptions. Although we do
not agree with the Agency’s analysis, we removed that finding and the related
recommendation from the final report. We feel this action is appropriate
because guidance in this area is not clear and consistent.

We revised two recommendations made in the draft report based on
management's comments. One recommendation was rephrased to more
accurately reflect the Agency's roles and responsibilities. To address
management's concerns regarding disrupting service, we changed a second
recommendation to recompete the contract at the end of the contract period.
We did not revise a third recommendation because sufficient information for
management to identify needed corrective action is in the body of the report.
Management disagreed with our recommendation to recompete the contract for
personal attendant services. The PFB Chief stated that they are instead taking
steps to ratify the contract. As we have discussed with Agency Counsel,
ratification is not appropriate in this situation. Additionally, the Agency should
avoid any procurement action that would result in a non-competitive award
unless the Agency can prepare an adequate sole source justification.

Management disagreed with our recommendation to recompete the mailroom
contract as a fixed-price contract because they are not required to and do not
think it would be cost-effective to do so. Management's assertion that
recompeting the contract would not be cost-effective is without merit since we


                                       12
estimate that the Agency could save approximately $342,000 over the 4
remaining option years. Aside from the savings, this contract should be
recompeted because the Agency improperly used a labor-hour contract.

Management commented that conduct of certain OIG personnel during the
course of the audit, which reflected a less than objective approach to the audit,
has been raised separately with the OIG. This situation involved one meeting
between Counsel to the Inspector General and a management official and did
not have an impact on the OIG's assessment of the Agency's operations.


                             RECOMMENDATIONS

We recommend that the PFB Chief:

1.    Establish procedures to ensure that all planning, competition, and
      contract monitoring requirements are met.

2.    Establish procedures to ensure that unauthorized commitments are
      properly ratified.

3.    Assign responsibility for file segments that are decentralized to other
      offices and establish a system to ensure the ability to locate these files
      promptly.

4.    Discontinue the practice of incrementally funding contracts.

5.    Obtain reimbursement for lunch breaks billed to the Agency on contract
      40-060038. Review the prior contract and obtain reimbursement for any
      lunch breaks not deducted from the hours billed.




                                        13
6.   Take the following steps for contract 40-06RN116:
     • Recompete this contract.
     • Ensure that invoices are paid in accordance with contract provisions.

7.   Recompete the management and operational support of the mailroom
     contract at the end of the current option year as a fixed-price contract
     using the correct FSS.




                                      14
                                                                                         ATTACHMENT 1
                                    Purchases Less Than $100,000

                              Description                              Performance Period       Amount
1    40-06RN059        abcd
                              Copier Paper                             10/1/05-9/30/06        $56,960.06
2    40-060038 abe f g        Technical Space Planning and Design      1/1/06-3/31/06         $20,625.00
                              Services
3    41-0500042 abh           Various Library Subscriptions            10/1/05-9/30/06         $7,238.93
4    40-060061 aef            Senior Employee Relations Contractor     6/12/06-10/13/06       $65,872.80
5    426C00025                Court Reporting for R-28                 1/1/06-12/31/06        $56,805.75
6    40-06RN114 aei j         Maintenance for Punch Machines           10/1/05-9/30/06         $4,485.00
7    PC 060323001 ab          Advanced Legal Writing and Editing       3/20/06                 $9,900.00
                              Training
8    40-050166 ai             Meeting Space and Accommodations         8/2/05-8/5/05          $29,565.94
9    40-06RN016               Business Reply Mail, Bulk Mail Permit,   10/1/05-9/30/06        $31,500.00
                              and Other Fees
10 40-050231      ab
                              Hearing Room Benches and Railing         9/23/05-3/31/06        $12,133.00
11 40-050269      af
                              Training for NLRB Attorney Supervisors   9/28/05-11/30/05       $13,792.93
                              and Managers
12   40-050095                Record Center Packing Boxes              10/1/04-9/30/05         $3,920.00
13   426C0015                 Court Reporting for R-13                 1/1/06-12/31/06        $31,447.80
14   40-06RN009 ai            Parking Spaces                           10/1/06-9/30/06         $4,080.00
15   40-050145 abce           Replacement of Library Doors.            4/14/05-6/30/05        $22,076.00
16   41-0500051 ah            Lexis – Shepard’s Online Service         11/1/05-10/31/06       $67,840.08
17   41-0500044 abh           Various Library Subscriptions            10/1/05-9/30/06         $7,205.91
18   40-06RN116 ek l m        Personal Attendant Services              10/1/05-9/30/06        $36,475.04
19   PC 060613002 abn         News, Publications, Website, and         3/17/06-3/16/07        $12,500.00
                              Inquiry Service Access
20 440500044                  Notices of Elections                     3/23/05-7/10/05         $4,174.00




                                                  15
                                                                                                                  ATTACHMENT 2
                                             Purchases Greater than $100,000

                                       Description                                         Performance Period                Amount
    1   41-0500048   abfho
                                       Labor & Employment Law Library and                  10/1/05-9/30/06                $198,510.00
                                       Labor Relations Reporter
    2   40-06RN034   aeo
                                       Copier Charges                                      10/1/05-9/30/06                $697,308.94
    3   40-06RN014   abo
                                       Postage Meter                                       10/1/05-9/30/06                $255,000.00
    4   40-06RN031   aeop
                                       Xerox Copier Management Program                     10/1/05-9/30/06                $319,329.56
    5   40-05RN033   cfq r
                                       NLRB Mailroom Support                               9/20/05-9/19/06                $195,000.00

a
  Required acquisition plan not completed.
b
  Adequate justification for using other than full and open competition was not given.
c
  Contract entered into before assurance that funds were available and was not contingent on the availability of funds.
d
  The Agency received shipments and was charged for items that were not part of this contract, creating an unauthorized commitment.
e
  Unauthorized commitment not properly ratified.
f
  Contract did not contain the appropriate inspection clause.
g
  The Agency overpaid for this contract because lunch breaks were not deducted from the hours billed to the NLRB.
h
  Supporting documentation maintained by Library without proper assignment of responsibility.
i
  Contract not awarded to a small business and the contract file did not contain the appropriate written justification.
j
  The Agency did not use the contractor’s FSS for this contract.
k
  An expired option was exercised for this contract.
l
  Contract was incrementally funded.
m
   The Agency was billed and paid the contractor as if this was a labor-hour contract and incorrectly charged one invoice to one fiscal
year when it should have been charged to another.
n
  The Agency made an unauthorized advanced payment for inquiry service as part of this contract.
o
  No evidence in the contract file that market research was conducted.
p
  A D&F was not completed for this contract.
q
  The correct FSS was not used for this contract.
r
  This was a labor-hour contract even though information was available to estimate the extent and duration of work and anticipate
costs.



                                                                  16
